WAIVER

Supreme Court of the United States

No. 20-8375

Luisa M. Liberto, et vir v. Geisinger Hospital, et al.
(Petitioners) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
iV] lam filing this waiver on behalf of all respondents.

Oo Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

 

OG Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: ae Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

 

Signature.

te. July 16, 2021
Anthony (T.J.) Andrisano
v

ir. OMs. OMrs. O Miss
Buchanan Ingersoll & Rooney PC

409 N. Second Street, Suite 500
City & State Harrisburg, PA a faa
717-237-4968 anthony.andrisano@bipc.com

 

 

 

(Type or print) Name

Firm

 

Address

 

 

Phone Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Luisa Liberto
Jeffrey Liberto
